No. 20-6957

In the
Supreme Court of the United States
In re Alfred Paul Centofanti, III
Alfred Paul Centofanti, III,
Petitioner,
v.
United States District Court, District of Nevada,
Respondent,
and
Dwight W. Neven and the Attorney General of Nevada,
Real parties in interest.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Proof of service

Rene L. Valladares
Federal Public Defender, District of Nevada
*Jeremy C. Baron
Assistant Federal Public Defender
411 E. Bonneville Ave. Suite 250
Las Vegas, Nevada 89101
(702) 388-6577 | jeremy_baron@fd.org
*Counsel of record for Alfred Centofanti

I certify I represent Alfred Centofanti through appointment under the
Criminal Justice Act of 1964, see 18 U.S.C. §§3006A(a)(2)(B), 3006A(d)(7). I certify
that on April 2, 2021, I served counsel for the State with a copy of the foregoing reply
in support of petition for a writ of certiorari. I certify I served counsel for the State
with a copy of this document via electronic means. On April 15, 2020, this Court
entered a standing order authorizing electronic service with the parties’ consent. The
Office of the Attorney General for the State of Nevada has consented to electronic
service in this case. Counsel for the State’s name and contact information is: Heather
Procter, Chief Deputy Attorney General, 100 N. Carson Street, Carson City, Nevada,
89701, (775) 684-1100.

Dated April 2, 2021.
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/Jeremy C. Baron
Jeremy C. Baron
Assistant Federal Public Defender

1

